                                                    CLOSEOUT FOR M96080022



           On 20 August 1996, a program officer1 told OIG of his concerns about a proposal2 on
    which he was named as the program officer and which was being recommended for funding.
    He explained that he and the proposal's PI had discussed the possibility that the proposal,
    which had been well received by reviewers, might be declined because of budgetary
    constraints. The proposal was a revision of a previously submitted one that had received
    similar laudatory reviews and been declined. The PI, and subsequently a senior colleague,3
    requested explanations from NSF for its decision to decline the revised proposal to which the
    Assistant ~ i r e c t o (AD)
                            r ~ responded. The program officer was concerned about the way the
    division decided to fund this proposal and also alleged that the PI was requesting funds for
    research already funded by another federal agency.

           Later that fiscal year, the Division ~ i r e c t o r(DD)
                                                                ~ received some funds and decided to
    use them to support the best of the unfunded proposals, including the PI's proposal. The
    program officer protested this decision for three reasons, he felt that (1) the PI had
    complained too much, (2) the AD's letter represented a formal reconsideration that supported
    his decision to decline the proposal, and (3) the PI's proposal described research that was the
    focus of an award from another federal agency.6 The Deputy Division ~ i r e c t o r(DDD)  ~
    determined that complaining was not a reason to sustain a declination, the AD's letter did not
    represent a reconsideration since it had not been requested by the PI, and the program officer
    had not assessed whether or not the scope of the NSF proposal overlapped with the other
    agency's award.

            The program officer told the DDD that he believed that, during the program officer's
    performance appraisal, the DD had evaluated the program officer's interactions with the PI
    negatively . The DDD concluded that this precluded the program officer's further handling of
    the proposal and appointed another program officer.' The second program officer did not
    have sufficient time to manage the proposal and a third program officergwas appointed. The
    third program officer addressed the overlap issue and then asked that the proposal be assigned
    to another program officer. The DDD honored this request but concluded that "the substance

        Dr.si-                                the program officer in the 0of the Division
                                                                                 J - 4
t         h         i   n the ~irectoratd-!
        ~roposal-s                             entitled, "                                                 It was submitted
    by    ~(-r~
              .ht\e                                sole PI. The PI is an ' L - ~ D e ~ a r t m e n t a t              The

                                                                                                                         at

        Dr.                                                          q      '     J                  .
        Dr.              is the Division Director for the Division of          m-
        The Department of Energy is the other federal agency.
    'si-~.r                      the Deputy Division Director for the Division of
        The second program officer was
    9
        The third program officer was Dr.


                                                              Page 1 of 2
                             CLOSEOUT FOR M96080022

of the issues regarding the [PI'S]proposal are quite straight forward but have been blown out
of proportion by several tangential issues fueled by personalities and internal politics which
should not be having this impact on the handling of this proposal." The second program
officer was reassigned the proposal. At this point, the original program officer told OIG of
his concerns that "[tlhe PI has misrepresented the record and duplicated [the other federal
agency's] funded aims."

        After reviewing the proposal jacket, OIG determined that, with the exception of the
allegation of misrepresentation, the problems described above were program management
issues. OIG determined that the PI'S alleged misrepresentation concerned the unspecified
overlap between the award by the other agency and the NSF proposal. The third program
officer had clarified, with the other agency, the connection between the two related efforts and
had, with the PI, developed a revised scope for the NSF-funded activity. Program officers
routinely contact PIS and other funding agencies to evaluate the relatedness of projects and on
the basis of that information can alter the scope of the NSF-supported project. In our
judgment the allegation of misrepresentation does not have substance. In this case, the
program's concern about overlap, and its resolution, exemplifies one aspect of normal
proposal processing and evaluation.

       This inquiry is closed and no further action will be taken in this case.


cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 2 of 2
